   June 17, 2005




Infrastructure and Environment

Technical Joint Cross-Service Group
Data Integrity and Internal Control
Processes for Base Realignment and
Closure 2005
(Report No. D-2005-086)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
BRAC                  Base Realignment and Closure
COBRA                 Cost of Base Realignment Actions
DoD OIG               Department of Defense Office of Inspector General
ICP                   Internal Control Plan
IEC                   Infrastructure Executive Council
ISG                   Infrastructure Steering Group
JCSG                  Joint Cross-Service Group
JPAT 7                Joint Process Action Team Criterion Number 7
OSD                   Office of Secretary of the Defense
TJCSG                 Technical Joint Cross-Service Group
                       Department of Defense Office of Inspector General

Report No. D-2005-086                                                       June 17, 2005
   (Project No. D2003-D000AB-0130.000)

             Technical Joint Cross-Service Group Data Integrity
                  and Internal Control Processes for Base
                       Realignment and Closure 2005

                                 Executive Summary

Who Should Read This Report and Why? Members of the Technical Joint Cross-
Service Group and Office of the Secretary of Defense personnel responsible for deciding
the realignment or closure of military installations based on the Base Realignment and
Closure (BRAC) data calls should read this report. The report discusses the validity,
integrity, and documentation of data used by the Technical Joint Cross-Service Group to
assist the Secretary of Defense in BRAC 2005 recommendations.

Background. BRAC 2005 is the formal process outlined in Public Law 101-510,
“Defense Base Closure and Realignment Act of 1990,” as amended, under which the
Secretary of Defense may realign or close military installations inside the United States
and its territories. As part of BRAC 2005, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued “Transformation Through Base
Realignment and Closure (BRAC 2005) Policy Memorandum One--Policy,
Responsibilities, and Procedures,” April 16, 2003, that provided for the Department of
Defense Office of Inspector General review of the accuracy of BRAC data and the
certification process. In addition, the Department of Defense Office of the Inspector
General validated the BRAC data used by the Joint Cross-Service Groups in developing
recommendations and that the data were certified by the appropriate authority.

The BRAC 2005 process was mandated for the United States and its territories and was
divided into the following data calls–capacity analysis, supplemental capacity, military
value, Cost of Base Realignment Actions, Joint Process Action Team Criterion
Number 7, and scenario specific. The supplemental capacity, military value, Cost of Base
Realignment Actions, and Joint Process Action Team Criterion Number 7 data calls are
collectively known as the second data call. This report is one of seven Joint Cross-
Service Group reports and discusses the Technical Joint Cross-Service Group
involvement in the base realignment and closure process.

A primary objective of BRAC 2005 was to examine and implement opportunities for
greater joint activity. The Technical Joint Cross-Service Group was established by the
Under Secretary of Defense for Acquisition, Technology, and Logistics as the Chairman
of the Infrastructure Steering Group on March 15, 2003, to analyze the current and future
needs of the DoD for research, development and acquisition, and test and evaluation.

Results. Based on analytical review and statistical sampling results, we determined that
the Technical Joint Cross-Service Group used certified data to develop its capacity
analysis report issued on January 13, 2005, and its military value analysis report issued
on January 12, 2005. Documentation supporting the capacity analysis and military value
analysis reports provided an adequate audit trail; however, the process established by the
TJCSG for the capacity and military values is complex and requires analytical and
computer proficiency skills to review. The Technical Joint Cross-Service Group’s
subgroups used Military Departments and Defense agencies’ certified data in developing
its 13 scenarios. For 11 scenarios that the TJCSG subgroups either changed or did not
use some of the certified data, 9 had adequate documentation supporting decisions and
methodologies for the changes with approval of the TJCSG Principals or documentation
for changes was not available but the changes were insignificant. For the remaining two
scenarios, supporting documentation for the changes to some of the certified data was
inadequate, it was unclear whether the TJCSG Principals approved the changes, and the
cost impact on the scenario is unknown. Finally, the Technical Joint Cross-Service
Group generally complied with the OSD internal control program and its own
information control and standard operating procedures. Although some of the scenarios
were not adequately documented for us to reach a conclusion, the scenario documentation
issues should not affect the overall reliability or integrity of the Technical Joint Cross-
Service Group BRAC 2005 process.

Management Comments. We issued a draft of this report on May 13, 2005. No written
response to this report was required, and none was received. Therefore, we are
publishing this report in final form.




                                            ii
Table of Contents

Executive Summary                                                               i

Background                                                                     1

Objectives                                                                     5

Finding
     Technical Joint Cross-Service Group Data Integrity and Internal Control
        Processes for Base Realignment and Closure 2005                         7

Appendixes
     A. Scope and Methodology                                                  13
        Management Control Program Review                                      15
     B. Review of Cost of Base Realignment Actions Input for Potential
          Candidate Recommendations                                            16
     C. Report Distribution                                                    30
Background
    Base Realignment and Closure 2005. Public Law 101-510, “Defense Base
    Closure and Realignment Act of 1990,” as amended, establishes the procedures
    under which the Secretary of Defense may realign or close military installations
    inside the United States and its territories. Congress authorized a Base
    Realignment and Closure (BRAC) 2005. The law authorizes the establishment of
    an independent Commission to review the Secretary of Defense recommendations
    for realigning and closing military installations. The Secretary of Defense
    submitted recommendations to the independent Commission on May 13, 2005.

    In the Secretary of Defense “Transformation Through Base Realignment and
    Closure (BRAC 2005) Memorandum,” November 15, 2002, the Secretary
    established two senior groups to oversee and operate the BRAC 2005 process.
    The two senior groups were the Infrastructure Executive Council (IEC) and the
    Infrastructure Steering Group (ISG). Distinct functional boundaries and levels of
    authority separated these two groups. The Secretary of Defense established and
    chartered the IEC and the ISG as the BRAC 2005 deliberative bodies responsible
    for leadership, direction, and guidance.

    Infrastructure Executive Council. The IEC, chaired by the Deputy Secretary of
    Defense and composed of the Secretaries of the Military Departments and their
    Service Chiefs, the Chairman of the Joint Chiefs of Staff, and the Under Secretary
    of Defense for Acquisition, Technology, and Logistics, was the policymaking and
    oversight body for the entire BRAC 2005 process. The IEC was the approval
    authority for all BRAC recommendations to the Secretary of Defense.

    Infrastructure Steering Group. The ISG was chaired by the Under Secretary of
    Defense for Acquisition, Technology, and Logistics and composed of the Vice
    Chairman of the Joint Chiefs of Staff, the Military Department Assistant
    Secretaries for Installations and Environment, the Service Vice Chiefs, and the
    Deputy Under Secretary of Defense for Installations and Environment. The ISG
    oversaw the joint cross-Service analyses of common business-oriented functions
    and ensured that this process is integrated with the Military Department and
    Defense agency specific analyses of all other functions. The ISG provided
    progress reports to the IEC. The Under Secretary of Defense for Acquisition,
    Technology, and Logistics had the authority and responsibility for issuing the
    operating policies and detailed direction necessary to conduct the BRAC 2005
    analyses.

           •   “Transformation Through Base Realignment and Closure (BRAC
               2005) Policy Memorandum One—Policy, Responsibilities, and
               Procedures,” April 16, 2003. Policy Memorandum One applies to
               the Military Departments, Defense agencies (DoD Components), and
               Joint Cross-Service Groups (JCSGs) in developing the Secretary of
               Defense BRAC recommendations for submission to the 2005 BRAC
               Commission for its review. Policy Memorandum One describes
               policy, responsibilities, and procedures to be followed by participants
               in the BRAC process. Additionally, Appendix B of Policy




                                        1
    Memorandum One is the Office of the Secretary Defense (OSD)
    internal control plan (ICP) for the BRAC 2005 process, which the
    JCSGs must use to ensure the accuracy of data collection and analysis.

•   “Policy Memorandum Two—BRAC 2005 Military Value
    Principles,” October 14, 2004. Policy Memorandum Two states that
    all recommendations made by the JCSGs and Military Departments
    will use military value as the determining factor. When making
    realignment or closure recommendations, JCSGs and Military
    Departments apply appropriate use of military judgment to meet all
    DoD requirements. Military judgment is applied through the
    following principles: Recruit and Train; Quality of Life; Organize;
    Equip; Supply, Service, and Maintain; Deploy and Employ
    (operational); and Intelligence.

•   “Transformation Through Base Realignment and Closure (BRAC
    2005) Policy Memorandum Three—Selection Criterion 5,”
    December 7, 2004. Policy Memorandum Three describes how BRAC
    Selection Criterion 5 will be implemented during the BRAC process.
    JCSGs and Military Departments will apply Selection Criterion 5 to
    their scenarios to estimate the projected costs and savings.

•   “Transformation Through Base Realignment and Closure (BRAC
    2005) Policy Memorandum Four—Selection Criteria 7 and 8,”
    December 7, 2004. Policy Memorandum Four provides guidance and
    clarification on the assessment of communities’ infrastructure and
    consideration of the environmental effects of realignment and closure
    scenarios.

•   “Transformation Through Base Realignment and Closure (BRAC
    2005) Policy Memorandum Five—Homeland Defense,”
    December 10, 2004. Policy Memorandum Five gives guidance that
    establishes policies and procedures for the Military Departments and
    the JCSGs to ensure that the DoD retains the necessary capabilities to
    support the homeland defense mission.

•   “Transformation Through Base Realignment and Closure (BRAC
    2005) Policy Memorandum Six—Selection Criterion 6,”
    December 20, 2004. Policy Memorandum Six provides guidance that
    establishes policies and procedures for the Military Departments and
    the JCSGs on how to use the Economic Impact Tool when applying
    BRAC Selection Criterion 6 to closure and realignment scenarios.

•   “Transformation Through Base Realignment and Closure (BRAC
    2005) Policy Memorandum Seven—Surge,” January 4, 2005.
    Policy Memorandum Seven provides guidance for the Military
    Departments and JCSGs to meet the DoD statutory requirement to
    consider surge in realignment and closure scenarios.

•   “Transformation Through Base Realignment and Closure (BRAC
    2005) Policy Memorandum Eight—Selection Criterion 8,”
    January 4, 2005. Policy Memorandum Eight provides guidance on


                             2
           how to identify the environmental impacts of a particular scenario to
           provide decision makers with the information they need to fully
           consider those impacts.

Joint Cross-Service Groups. A primary objective of BRAC 2005, in addition to
realigning base structure, was to examine and implement opportunities for greater
joint activity. Prior BRAC analyses considered all functions on a Service-by-
Service basis and, therefore, did not result in the joint examination of functions
that cross Services. The JCSGs addressed issues that affect common business-
oriented support functions, examined functions in the context of facilities, and
developed realignment and closure recommendations based on force structure
plans of the Armed Forces and on selection criteria. JCSGs reported their results
through the ISG to the IEC. The OSD established seven JCSGs–Education and
Training, Headquarters and Support Activities, Industrial, Intelligence, Medical,
Supply and Storage, and Technical.

Technical Joint Cross-Service Group. The Under Secretary of Defense for
Acquisition, Technology, and Logistics as the Chairman of the ISG established
the Technical Joint Cross-Service Group (TJCSG) on March 15, 2003. The
TJCSG is chaired by the Director, Defense Research and Engineering. The Joint
Chiefs of Staff representative is the Deputy Director for Strategic Logistics; the
Army representative is the Deputy to the Commander/Technical Director, the
U.S. Army Developmental Test Command; the Navy representative is the Chief
of Naval Research; the Air Force representative is the Deputy Assistant Secretary
for Acquisition Integration; and the Marine Corps representative is the Deputy
Commander, Marine Corps Systems Command. Each JCSG was responsible for
overseeing the joint cross-Service analysis of functions within its area. The
TJCSG created five subgroups that were responsible for evaluating technical
facilities for possible realignment or closure. The five subgroups are:

       •   Air, land, sea and space systems,

       •   Weapons and armaments,

       •   Command, control, communications, computers, intelligence,
           surveillance and reconnaissance,

       •   Enabling technology, and

       •   Innovative systems.

Each subgroup is composed of technical experts that span the technical
capabilities of the DoD. Each subgroup was responsible for analyzing the
technical facilities in one or more of the 12 technical capability areas of the
Defense Technical Area Plan. To aid in the analysis, the TJCSG divided “land
and sea vehicles” into separate capabilities, thus creating 13 technical capability
areas. The 13 technical capability areas are: air platforms; battlespace
environments; biomedical; chemical and biological defense; ground vehicles;
human systems; information systems; materials and processes; nuclear; sea
vehicles; sensors, electronics and electronic warfare; space platforms; and
weapons and armaments. Each of the 13 technical capability areas was reviewed
for three functions (research, development and acquisition, and test and


                                     3
            evaluation). As such, technical capabilities were divided into 39 sets of like
            facilities (13 technical areas multiplied by 3 technical functions) and were
            referred to as the 39 technical facility categories. Technical facilities include
            laboratories; test ranges; product centers; warfare centers; and research,
            development and engineering centers.

            BRAC Data Calls. The BRAC 2005 data collection process was mandated for
            the United States and its territories and was divided into the following data calls–
            capacity analysis, supplemental capacity, military value, Cost of Base
            Realignment Actions (COBRA), and Joint Process Action Team Criterion
            Number 7 (JPAT 7), and scenario specific. The supplemental capacity, military
            value, COBRA, and JPAT 7 data calls are collectively known as the second data
            call. Each JCSG developed data call questions related to capacity analysis and
            military value to obtain information about the functions that they reviewed. Each
            JCSG was required to issue a capacity analysis and a military value analysis
            report. Each data call had a specific purpose as follows.

                     •    The capacity analysis data call gathered data on infrastructure, current
                          workload, surge requirements, and maximum capacity.

                     •    The supplemental capacity data call clarified inconsistent data
                          gathered with the initial capacity analysis data call.

                     •    The military value data call gathered data on mission requirements,
                          land and facilities, mobilization and contingency, and cost and
                          manpower.

                     •    The COBRA data call gathered data to develop costs, savings, and
                          payback (formerly known as return on investments) of proposed
                          realignment and closure actions.

                     •    The JPAT 7 data call gathered data to assess the community’s ability
                          to support additional forces, missions, and personnel associated with
                          individual scenarios. 1
                     •    The scenario specific data call gathered data related to specific
                          scenario conditions for realignment or closure.
            COBRA Model. The COBRA model provides a uniform methodology for
            estimating and itemizing projected costs and savings associated with BRAC
            scenarios. The COBRA model calculates the costs, savings, and payback of
            proposed realignment and closure actions, using data that are readily available
            without extensive field studies. The COBRA model can also be used to compare
            the relative cost differences between various stationing alternatives. It is not
            designed to produce budget estimates, but to provide a consistent method of
            evaluating the stationing alternatives. COBRA calculates the costs and savings of
            base stationing scenarios over a period of 20 years, or longer if necessary. It
            models all activities (moves, construction, procurements, sales, and closures) as

1
    A scenario is a description of one or more potential realignment or closure actions identified for formal
    analysis by either a JCSG or a Military Department.



                                                         4
    taking place during the first 6 years, and thereafter treats all costs and savings as
    steady-state. The key output value produced is the Return on Investment Year,
    which is the point in time when the realignment or closure has paid for itself and
    net savings start to accrue (payback period). COBRA allows realignment or
    closure scenarios to be compared in terms of when payback is achieved.

    To perform a COBRA assessment, the TJCSG loaded scenario-specific data into
    the COBRA model. These data, used in combination with model algorithms and
    standard cost factors already developed and pre-loaded into the model, result in
    an estimate of costs, savings, and payback for the proposed realignment or closure
    scenario. To obtain the needed COBRA data inputs, the TJCSG developed
    COBRA-related questions that were issued as scenario data calls. These
    COBRA-related questions focus on data not previously gathered for specific
    donor and receiving installations.

    Internal Control Plans. The OSD ICP was issued in the Under Secretary of
    Defense for Acquisition, Technology, and Logistics’ memorandum,
    “Transformation Through Base Realignment and Closure (BRAC 2005) Policy
    Memorandum One--Policy, Responsibilities, and Procedures,” April 16, 2003.
    Appendix B of Policy Memorandum One is the ICP for all JCSGs. In addition,
    each JCSG prepared standard operating procedures that further delineated
    controls related to the specific JCSG.

    The TJCSG prepared, “Transformation Through Base Realignment and Closure,
    Technical Joint Cross-Service Group Information Control Procedures,” on
    April 13, 2004. The information control procedures provide guidance on
    controlling and safeguarding BRAC 2005 deliberative data, documents, decisions,
    and recommendations. The information control procedures and the standard
    operating procedures provided detailed guidance on TJCSG specific facility
    operating hours, facility access control, storage requirements, office space
    security, document control, use of facsimile, telephone and e-mail, reproduction,
    emergency contact officials, and computer security.

    Department of Defense Office of Inspector General Responsibility. Pursuant
    to the “Transformation Through Base Realignment and Closure (BRAC 2005)
    Policy Memorandum One-Policy, Responsibilities, and Procedures,” April 16,
    2003, the Department of Defense Office of Inspector General (DoD OIG)
    provided advice and recommendations on the ICP development and
    implementation, reviewed the accuracy of BRAC data, and evaluated the
    certification process. In addition, DoD OIG personnel assisted the JCSGs and
    DoD Components as needed. This report summarizes issues related to the TJCSG
    BRAC 2005 process.


Objectives
    The overall objective of the audit was to evaluate the validity, integrity, and
    documentation of data used by the TJCSG. Specifically, we determined whether
    the TJCSG used certified data and created an adequate audit trail for capacity




                                          5
analysis and military value analysis. We determined whether the TJCSG created
an adequate audit trail for the input into the COBRA model used for costing
potential candidate recommendations.

In addition, we evaluated whether the TJCSG complied with the OSD ICP and the
specific TJCSG procedures for safeguarding BRAC data. This report is one in a
series on the JCSG data integrity and internal control processes for BRAC 2005.
See Appendix A for a discussion of the audit scope and methodology, the review
of the management control program as it relates to the objectives, and prior
coverage. Appendix B provides our review of COBRA input for each scenario
recommendation.




                                   6
                    Technical Joint Cross-Service Group
                    Data Integrity and Internal Control
                    Processes for BRAC 2005
                    Based on analytical review and statistical sampling results, we determined
                    that the TJCSG used OSD BRAC-certified data to develop its capacity
                    analysis report issued on January 13, 2005, and its military value analysis
                    report issued on January 12, 2005. Documentation supporting the
                    capacity analysis and military value analysis reports provided an adequate
                    audit trail; however, the process established by the TJCSG for the capacity
                    and military values is complex and requires analytical and computer
                    proficiency skills to review. Also, the TJCSG subgroups used Military
                    Departments and Defense agencies’ certified data in developing its
                    13 scenarios. 2 For 11 scenarios that the TJCSG subgroups either changed
                    or did not use some of the certified data, 9 had adequate documentation
                    supporting decisions and methodologies for the changes with approval of
                    the TJCSG Principals or documentation for changes was not available but
                    the changes were insignificant. For the remaining two scenarios,
                    supporting documentation for the changes to some of the certified data
                    was inadequate, and it was unclear whether the TJCSG Principals
                    approved the changes and the cost impact on the scenarios. In addition,
                    the TJCSG generally complied with the OSD ICP and its own information
                    control and standard operating procedures. Although some of the
                    scenarios were not adequately documented for us to reach a conclusion,
                    the scenario documentation issues should not affect the overall reliability
                    or integrity of the Technical Joint Cross-Service Group BRAC 2005
                    process.


Technical Joint Cross-Service Group Data Integrity and
  Documentation for BRAC 2005
           The sampling results and other review procedures indicate that the TJCSG used
           certified data and had an adequate audit trail for the capacity analysis, military
           value analysis, and inputs into the COBRA model. The certified data responses
           were collected from the installations as a result of formal data calls generated
           from the TJCSG, which maintained the data.

           Capacity Analysis. To verify the inputs to the capacity analysis, we randomly
           selected a sample of 208 data inputs (see Appendix A for details). The sample
           results showed that the estimated proportion of errors were within the established
           criteria, and verified that the TJCSG used certified data to develop its capacity
           analysis report. The DoD OIG evaluated the TJCSG BRAC 2005 capacity
           analysis data and issued a memorandum on March 16, 2005. The objective was

2
    For the purpose of this report, scenario responses received from the Military Departments BRAC offices
     were considered certified. The TJCSG subgroups made no changes to the submitted certified data for 2
     of the 13 scenarios.



                                                       7
to evaluate the validity, integrity, and documentation of data that the TJCSG used.
In addition, we determined whether the TJCSG used certified data to develop the
capacity analysis report and whether documentation was adequate to support the
capacity analysis report’s calculations. We evaluated the capacity analysis report
that the TJCSG issued on January 13, 2005, and supplemented the evaluation with
discussions with the TJCSG Analytical Support Group to independently
recalculate the values in the TJCSG report. We also examined the supporting
documentation for the methodology that the TJCSG used to develop the capacity
analysis calculations.

However, the methodology for calculating some capacity measures was not
consistently applied because the certified data contained errors. Where data
errors existed, the TJCSG Analytical Support Group used other certified data that
provided a more accurate response. We observed no instance where the changes
were intended to compromise the results.

The documentation of the methodology for identifying how the TJCSG calculated
the capacity values was adequate. To accomplish our independent verification,
we depended upon written documentation, computer algorithms that described
how capacity question responses were used in determining capacity values, and
discussions with the TJCSG Analytical Support Group to better understand the
TJCSG construct.

Military Value Analysis. On March 31, 2005, the DoD OIG issued a
memorandum on the January 12, 2005, TJCSG military value report. The
objective of the review was to evaluate the validity, integrity, and documentation
of data used by the TJCSG. Specifically, the review was to determine whether
the TJCSG used certified data in developing the military value report and whether
documentation was adequate to support the report’s calculations. The TJCSG
documentation supporting the military value analysis was a report discussing the
technical areas, technical functions, and attributes used to calculate the activities’
military value. Although the military value report discussed the process for
determining military value, supporting documentation of the computing process
for the military value scores was not auditable. Documentation mainly consisted
of the code for compilation of computer data files, a list of interconnected
computer queries in structural query language, and a document identifying
computer query steps. As constructed, the TJCSG military value calculation
documentation did not completely satisfy the requirement of Policy
Memorandum One that the process must be properly documented and auditable.

Subsequent Review of the Military Value Analysis. Subsequent to issuing the
memorandum, the DoD OIG continued the review of military value analysis and
met with TJCSG official to better understand their process. Using statistical
sampling, the results showed that the TJCSG used certified data to develop its
military value analysis report. To verify the inputs to the TJCSG military value
model, we conducted a review of a randomly selected sample of 208 data inputs
to TJCSG military value report (see Appendix A for details). The sample results
showed that the estimated proportion of errors were within the established criteria
and verified that OSD BRAC-certified data were used as input to the model and
that the unit value factors as described in the military value report were properly
applied.



                                      8
In addition, we conducted two analytical reviews to verify the military value
calculations in conjunction with the TJCSG Analytical Support Group. The first
approach was a recalculation of the military value scores for 1 of the 39 technical
facility categories (technical categories). The second approach was a test of
selected activities within two technical categories to recalculate each activity’s
individual military value score. The results of the two processes follow.

        One Technical Category Calculation. We conducted a detailed
examination of 1 of the 39 technical categories to independently verify the
military values of the organizations as determined by the TJCSG. To conduct this
review, we used the OSD-certified BRAC data and the process described in the
TJCSG military value report dated January 12, 2005. As a result of this review,
we were able to replicate the values identified in the TJCSG military value report
for the one technical category. This review verified that OSD-certified BRAC
data were used and that the military values for the organizations in that technical
category were derived as described in the TJCSG military value report. However,
the results of one technical category verification does not give assurance that the
military values in the remaining 38 technical categories were properly calculated
because each technical category was assigned different weights and factors. It is
unknown whether those weights and factors were properly applied and whether
the process used in the one technical category reviewed was also used in the
remaining 38 technical categories.

        Test of Selected Activities Within Two Technical Facility Categories.
We conducted tests on two technical categories for selected activities within the
categories. To conduct these tests, we selected activities in a category and
independently recalculated the military values for the activities using certified
data and the methodology described in the military value report. We performed
the tests to determine whether certified data were used and whether the proper
weights were applied as identified in the military value report. These tests
verified that the TJCSG used certified data for the selected activities and the
proper weights were used to determine the military values of selected activities in
the two technical categories.

        Summary of the TJCSG Capacity Analysis and Military Value
Analysis. Based on statistical sampling and analytical reviews, we determined
that the TJCSG used OSD BRAC-certified data in developing its capacity
analysis and military value analysis reports. We limited the review of the TJCSG
capacity calculations to the values identified in the January 13, 2005, report and
the review of the TCSG military value calculations to the report issued on
January 12, 2005. Our examinations identified that OSD BRAC-certified data of
December 27, 2004, were used in both reports. However, the process established
by the TJCSG for the capacity and military values is quite complex, not easily
understood, and requires analytical and computer proficiency skills. Only after
expending significant audit effort were we able to verify that certified data were
used in developing both reports.

Subsequent to December 27, 2004, the Military Departments and the Defense
agencies continued to submit new and revised certified data to the OSD BRAC
office that may have affected the TJCSG capacity analysis and military values
reports. We did not conduct a reexamination of the new and revised certified data



                                     9
           and their resulting impact on the capacity analysis and military value reports
           because the TJCSG did not formally issue revised values until the TJCSG issued
           its final report and because of time and resource limitations.

           Scenario Development. We examined 13 TJCSG scenarios (potential candidate
           recommendations) to determine whether BRAC-certified data were used, whether
           sufficient documentation existed when BRAC-certified data were not used, and
           whether the changes to the certified data were approved by TJCSG Principals. 3
           TJCSG Principals provided standard assumptions to the subgroups to use during
           scenario development. Standard assumptions included timeframes for planning
           proposed consolidations, estimated additional square footage requirements for
           science and technology personnel, and a 15 percent personnel reduction for
           administrative and science and technology staffing, depending on whether the
           scenario involved a consolidation or a co-location. In addition, the TJCSG
           Principals authorized the exclusion of any activity that had 30 or fewer full-time
           Government personnel from scenario consideration. The standard assumptions
           were developed based on the TJCSG Principals’ professional military judgment
           and were applied to most of the proposed scenarios.

           Our review determined that all 13 scenarios used certified data in scenario
           development. However, in developing 11 of the scenarios certified data were
           either changed or not used (2 scenarios did not modify any of the data received
           from the Military Departments). For the 11 scenarios that either changed or did
           not use some of the certified data, 9 had adequate documentation supporting
           decisions and methodologies for the changes with TJCSG approval or
           documentation supporting the change was not provided but the change was
           insignificant in relation to the entire scenario. For one scenario (TECH 0006R),
           documentation supporting the elimination of two cost elements was inadequate, it
           was unclear whether the changes had TJCSG Principals’ approval, and we were
           unable to determine the impact on the scenario cost for the exclusions. For
           another scenario (TECH 0042AR), the supporting documentation was inadequate
           for two cost elements that reduced the cost of the scenario, and we were unable to
           determine their significance in relation to the entire scenario. When
           documentation existed, the scenarios had an adequate audit trail. All scenarios
           used COBRA model version 6.10 standard data to develop costs, savings, and
           payback determinations. Appendix B provides details of the scenarios reviewed
           and specific instances where exceptions were identified.


Technical Joint Cross-Service Group Internal Control
  Processes for BRAC 2005
           The TJCSG generally complied with the OSD ICP and its own safeguarding
           procedures identified in “Transformation Through Base Realignment and Closure
           Technical Joint Cross-Service Group Information Control Procedures” and the
           “Standard Operating Procedures.” To evaluate TJCSG compliance with the OSD


3
    Scenarios remanded to the Military Departments or Defense agencies were not included in our scenario
     review.



                                                     10
ICP, we evaluated whether TJCSG personnel completed nondisclosure
agreements; collected, marked, and safeguarded BRAC data; and documented
deliberative meetings.

Compliance with the OSD ICP. Generally, the TJCSG complied with the OSD
ICP procedures except with regard to adequate documentation as previously
discussed. The OSD ICP required that:

   •   the BRAC 2005 process be clearly recorded;

   •   information used in the analysis be certified by the appropriate authority
       for accuracy and completeness, and that the information be used
       consistently;

   •   data collected and used for analyses and/or decision making be obtained
       from appropriate sources;

   •   minutes be recorded for all deliberative meetings;

   •   oral briefings be captured in minutes;

   •   outside studies be brought to the attention of any BRAC group;

   •   technical experts submit information or data in writing with the required
       certification if the JCSG considers the data relevant;

   •   nondisclosure agreements be maintained for all participants in the BRAC
       process; and

   •   BRAC 2005 documents be marked as draft deliberative and/or sensitive.

Compliance with the TJCSG ICP and Standard Operating Procedures.
Generally, the TJCSG complied with the procedures for controlling and
safeguarding BRAC data. Examples of compliance follow.

   •   all BRAC data were retained in secure storage facility,

   •   access to the TJCSG facility was controlled by a security officer,

   •   access to the TJCSG Portal was restricted to TJCSG personnel,

   •   a visitor control log was maintained and visitors were escorted within the
       facility,

   •   communications through e-mail contained “Draft Deliberative Document
       – For Discussion Purposes Only – Do Not Release Under FOIA”
       markings,

   •   all nondisclosure agreements were signed,




                                    11
        •   a list of senior individuals with access to the secure facility during an
            emergency was maintained, and,

        •   minutes were maintained for deliberative sessions.


Data Integrity
     Data integrity existed between the OSD data and the TJCSG presentation disks
     used by the TJCSG subgroups in developing scenario candidate
     recommendations. The DoD OIG Data Mining Division reviewed the integrity of
     the data transfer between OSD BRAC office to the TJCSG presentation disks for
     data of December 27, 2004, and confirmed that the data transfer was identical and
     that no data were lost or changed.


Conclusion
     Through our analytical review and statistical sampling, we determined that the
     TJCSG used OSD BRAC-certified data in preparing its capacity analysis and
     military value analysis reports issued in January 2005. However, the process
     developed to determine capacity and military values is complex and requires
     analytical and computer proficiency skills. OSD BRAC-certified data were used
     in developing all the scenarios; however, not all TJCSG subgroups properly
     documented adjustments to certified data while developing the scenarios. The
     TJCSG generally complied with OSD ICP and its own information control and
     standard operating procedures.




                                          12
Appendix A. Scope and Methodology
   We evaluated the validity, integrity, and documentation of data used by the
   TJCSG. Specifically, we determined whether the TJCSG used certified data and
   created an adequate audit trail.

   We attended meetings of the TJCSG. We reviewed the formal minutes and
   briefing charts of the meetings to verify that decisions made by the TJCSG were
   adequately documented. We also reviewed the TJCSG information control plan
   for compliance and monitored its compliance.

   We performed this audit from May 2003 through May 2005 in accordance with
   generally accepted government auditing standards as appropriate for this BRAC
   2005 effort.

   We performed validations to determine whether the TJCSG used certified data.

   We evaluated the integrity of the TJCSG BRAC 2005 process by:

          •   reviewing the automated capacity analysis and military value analysis
              models for accuracy;

          •   determining that capacity analysis and military value methodologies
              were sufficiently documented; and

          •   comparing data used to make deliberative decisions to certified or
              authoritative data.

   Scope Limitations. We did not evaluate TJCSG scenarios that were remanded to
   the Military Departments because the responsibility to use certified data rested
   with the Military Departments. We limited the review of the TJCSG capacity
   calculations to the values identified in the January 13, 2005, report and the review
   of the TJCSG military value calculations to the report issued on January 12, 2005.
   OSD BRAC-certified data as of December 27, 2004, were used for both reviews.
   Subsequent to December 27, 2004, the Military Departments and the Defense
   agencies continued to submit to the OSD BRAC office new and revised certified
   data that may have affected the capacity and military values examined in our
   analysis. We did not conduct a reexamination of the new and revised certified
   data during this audit because the TJCSG did not formally issue revised values
   until the TJCSG issued its final report because of time and resource limitations.

   Capacity Analysis. We randomly selected a sample of 208 technical capabilities
   and functions for review, with a 95 percent confidence rate and an acceptable
   tolerable 3 percent error rate, with no more than 2 sample errors. We evaluated
   the validity, integrity, and documentation of data used by the TJCSG to determine
   whether certified data were used in developing the TJCSG capacity report and
   whether documentation was adequate to support the capacity calculations. The
   review was conducted on the TJCSG BRAC 2005 capacity analysis report issued



                                        13
on January 13, 2005, with data as of December 27, 2004. We also examined the
supporting documentation for the methodology that the TJCSG used to develop
the capacity calculations.

Military Value Analysis. We limited our review of the TCSG military value
calculations to the report issued on January 12, 2005. We conducted a statistical
sample of data inputs into the military value model to verify that certified data
were used as the input. We randomly selected a sample of 208 of the
11,545 lines of certified data inputs to the TJCSG military value report. The
sample was selected using a 95 percent confidence rate and an acceptable
tolerable error rate of 3 percent, with no more than 2 sample errors. We
conducted this review by following the process described in the TJCSG military
value report, supplemented with discussions with the TJCSG Analytical Support
Group.

In addition, we reviewed the TJCSG process for determining activities’ military
value by independently recalculating the military value scores for 1 of the
39 technical facility categories, testing selected activities within two technical
facility categories and recalculating each activity’s individual military value
score.

We also examined the supporting documentation for the methodology that the
TJCSG used to develop the military value calculations.

Scenario (or COBRA) Specific. We reviewed scenario data provided by the
Military Departments and Defense agencies in response to TJCSG scenario data
calls. We compared the scenario responses of the Military Departments and
Defense agencies to the COBRA 6.10 model that supported the scenario.
COBRA 6.10 runs were reviewed with data dates between April 20, 2005 to
May 5, 2005. We evaluated the documentation supporting the use of other than
certified data from the Military Departments and Defense agencies to determine
whether adequate documented justifications were prepared.

Use of Computer-Processed Data. To verify the capacity analysis report and
the military value analysis report, we relied on TJCSG computer processed data.
The review of computer processed data was limited to examining whether the
certified data were used as an input to the TJCSG system and whether the weights
and factors were correctly used for the technical facility category reviewed. We
used the process as described in the capacity and military value reports to verify
the respective values. We did not conduct tests of the computer systems that
processed the data.

Government Accountability Office High-Risk Areas. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the Managing Federal Real Property and the DoD Approach
to Business Transformation, DoD Support Infrastructure Management high-risk
areas.




                                     14
Management Control Program Review
    We evaluated the TJCSG management controls for documenting and safeguarding
    information associated with the BRAC 2005 data calls, as directed by the OSD
    ICP. Specifically, we reviewed nondisclosure agreements, deliberative meeting
    minutes, storage of BRAC data, and the supporting documentation for TJCSG
    BRAC analysis. Management controls were adequate as they applied to the audit
    objectives (see finding for specific details). The JCSGs were established as part
    of the BRAC process and therefore did not have management control programs
    outside the BRAC process.


Prior Audit Coverage
    Since the issuance of the BRAC 2005 authorization, there have been
    six memorandums or audit reports issued on the subject matter impacting the
    TJCSG.


DoD OIG
    DoD OIG Memorandum “Validation of the Base Realignment and Closure 2005
    Military Value Data Used by the Technical Joint-Cross Service Group,”
    March 31, 2005

    DoD OIG Memorandum “Validation of the Base Realignment and Closure 2005
    Capacity Data Used by the Technical Joint Cross-Service Group,” March 16,
    2005


Army
    U.S. Army Audit Agency, “Validation of Army Responses for Joint Cross-
    Service Group Questions,” Audit Report A-2005-0169-ALT, April 22, 2005

    U.S. Army Audit Agency, “Army Military Value Data, The Army Basing Study
    2005,” Audit Report A-2005-0083-ALT, December 21, 2004

    U.S. Army Audit Agency, “Cost of Base Realignment Action (COBRA) Model,
    The Army Basing Study 2005,” Audit Report A-2004-0544-IMT, September 30,
    2004

    U.S. Army Audit Agency, “Validation of Army Installation Capacity Data for
    Base Realignment and Closure 2005, Technical Joint Cross-Service Group,”
    Audit Report A-2004-0476-IMT, August 30, 2004




                                       15
Appendix B. Review of Cost of Base
            Realignment Action Input
            for Potential Candidate
            Recommendations
                 Cost of Base Realignment Action Runs Reviewed by Scenario Data Call




                                                                                                ns



                                                                                                p
                                                                                            ti o



                                                                                          rou
                                                                                         mp



                                                                                        bg
                                                                                      su




                                                                                      ed
                                                                                     su
                                                                                   As




                                                                                  lud
                                                                               SG

                                                                                   n
                                                                               ies



                                                                                   t
                                                                                 o




                                                                              en
                                                                             ard




                                                                             nc
                                                                                i
                                                                            tat
                                                                            JC



                                                                           log



                                                                         gm
                                                                          si
                                                                         nd




                                                                          n
                                                                         T
                                                                        ta




                                                                         o
                                                                     me



                                                                        g
                                                                    jud
                                                                     od
                                                                   Sta



                                                                      y
                                                                      a




                                                                   vin
                                                                 db
                                                                dd



                                                                 cu

                                                                   h


                                                                ry
                                                               sa
                                                                 t
                                                             SG




                                                            me
                                                               e

                                                               o
                                                            ifie




                                                          ilita
                                                             g
                                                         ed



                                                          or
                                                       an
                                            C

                                                          t




                                                         t
                                                        r




                                                    fm
                                                    ien

                                                   sts
                                                       t
                                         TJ

                                                     ce

                                                   ch

                                                   ua




                                               eo
                                               ffic

                                                co
                                      ed

                                             ed



                                               eq
                                               ta
                                           Da
                                    Us

                                           Us




                                           Us
                                           Ad

                                           Su

                                           All
                TECH-0005R         yes     yes    yes   no*   no*    no     yes
                TECH-0006R         yes     yes    yes   no    no     no     yes
                TECH-0009R         yes     yes    yes   yes   yes    no     yes
                TECH-0013          yes     yes    yes   no*   no*    no     yes
                TECH-0018A         yes     yes    yes   yes   yes    no     yes
                TECH-0018B         yes     yes    yes   yes   yes    no     yes
                TECH-0018DR        yes     yes    yes   yes   yes    no     yes
                TECH-0018E         no      yes    no    n/a   n/a    n/a    n/a
                TECH-0031          yes     yes    yes   no*   no*    yes    yes
                TECH-0040R         yes     yes    yes   yes   yes    no     yes
                TECH-0042AR        yes     yes    yes   no    no     no     yes
                TECH-0042C         yes     yes    yes   no*   no*    no     yes
                TECH-0054          no      yes    no    n/a   n/a    n/a    n/a
                Overall            11      13     11     5     5     10     11




* Identifies four scenarios with inadequate documentation supporting decisions and
methodologies for the changes made by the TJCSG subgroups including TJCSG
Principals’ approval, but the certified data change was insignificant in relation to the
entire scenario.

Scenario exceptions identified in the chart above are discussed on the following pages.




                                                  16
TECH 0005R – Establish Centers for Rotary Wing Air Platform Development and
  Acquisition, Test, and Evaluation

   •   Standard TJCSG assumptions were used.

   •   USED CERTIFIED DATA: Certified data were used to develop the scenario.

       Static data were not modified in the COBRA 6.10.

   •   DATA CHANGED BY TJCSG SUBGROUP: Data were changed by the TJCSG
       subgroup. Not all changes were authorized by the TJCSG Principals.

   •   ADEQUATE DOCUMENTATION: Adequate documentation was prepared to
       justify not using certified data except for the following:

       - Administrative building for Patuxent River square footage is overstated.*
       - Fort Rucker civilian personnel is overstated.*

   •   SUFFICIENT METHODOLOGIES: Adequate rationale was provided to support
       the changes to the certified data except for items noted above.

   •   COST OR SAVINGS: Certified costs and savings were used in part and
       exceptions to using certified data were adequately supported.

   •   USE OF MILITARY JUDGMENT: Military judgments were used by the TJCSG
       subgroup. Documentation provided adequate explanations when uncertified data
       was used, changes were approved by the TJCSG Principals’ except for items
       above.


* Documentation supporting the change was not provided, but the change was
insignificant in relation to the entire scenario.




                                          17
TECH 0006R – Establish Centers for Fixed Wing Air Platform Research, Development
  and Acquisition, Test, and Evaluation

   •   Standard TJCSG assumptions were used.

   •   USED CERTIFIED DATA: Certified data were used to develop the scenario.

       Static data were not modified in the COBRA 6.10.

   •   DATA CHANGED BY TJCSG SUBGROUP: Data were changed by the TJCSG
       subgroup. Not all changes were authorized by the TJCSG Principles.

   •   ADEQUATE DOCUMENTATION: Adequate documentation was prepared to
       justify not using certified data except for the following:

       - Elimination of Electronic and Communications RDT&E and indoor
         physical fitness facility at Wright-Patterson Air Force Base.*

   •   SUFFICIENT METHODOLOGIES: Adequate rationale was provided to support
       the changes to the certified data except for items noted above.

   •   COST OR SAVINGS: Certified costs and savings were used in part and
       exceptions to using certified data were adequately supported.

   •   USE OF MILITARY JUDGMENT: Military judgments were used by the TJCSG
       subgroup. Documentation provided adequate explanations when uncertified data
       was used including approval by the TJCSG Principals’ except for items above.


* Documentation supporting the TJCSG Principals approval for these two items
elimination from the scenario was not been provided, and we were unable to determine
the cost impact on the scenario.




                                          18
TECH 0009R – Defense Research Service Led Laboratories

   •   Standard TJCSG assumptions were used.

   •   USED CERTIFIED DATA: Certified data were used to develop the scenario.

       Static data were not modified in the COBRA 6.10.

   •   DATA CHANGED BY TJCSG SUBGROUP: Certified data were changed by
       the TJCSG subgroup. Changes were approved by the TJCSG Principals.

   •   ADEQUATE DOCUMENTATION: Adequate documentation was prepared to
       justify not using some of the certified data. Exclusions were approved by the
       TJCSG.

   •   SUFFICIENT METHODOLOGIES: Adequate documented rationale was
       provided to support changes to the certified data.

   •   COSTS OR SAVINGS: Costs and savings were not included for various reasons.
       The rationale for not including costs was adequately documented and approved by
       the TJCSG.

   •   USE OF MILITARY JUDGMENT: Certified data were changed based on
       military judgment by the TJCSG subgroup. Documentation showed the basis of
       the adjustment and TJCSG Principals’ approval.

(Note: TECH-0009R consists of two parts; TECH Part 0009B was remanded to the
Army and therefore not included in this review.)




                                          19
TECH 0013 – Consolidate Ground Vehicle Development and Acquisition in
  a Joint Center

   •   Standard TJCSG assumptions were used.

   •   USED CERTIFIED DATA: Certified data were used to develop the scenario.

       Static data were not modified in the COBRA 6.10.

   •   DATA CHANGED BY TJCSG SUBGROUP: Data were changed by the TJCSG
       subgroup. Not all changes were authorized by the TJCSG Principals.

   •   ADEQUATE DOCUMENTATION: Adequate documentation was prepared to
       justify not using certified data except for the following:

          -   Realignment years not supported.*
          -   Miscellaneous recurring savings and environmental non-Military
              construction cost not supported.*
          -   Military and civilian personnel changes (increases and decreases
              depending upon activity) not supported.*

   •   SUFFICIENT METHODOLOGIES: Adequate rationale was provided to support
       the changes to the certified data except for items noted above.

   •   COSTS OR SAVINGS: Certified costs and savings were used in part. Costs and
       savings estimates that were derived from military judgment were not adequately
       explained or approved by the TJCSG. An anti-terrorism, force protection cost
       estimate of $144,794 was included in this scenario.

   •   USE OF MILITARY JUDGMENT: Military judgments were used by the TJCSG
       subgroup. Documentation did not provide adequate explanations when
       uncertified data were used and documentation was not provided for the changes
       showing approval by the TJCSG Principals.


* Documentation supporting the change was not provided but the change was
insignificant in relation to the entire scenario.




                                          20
TECH 0018A – Create an Air Integrated Weapons and Armaments Research,
  Development, and Acquisition, Test and Evaluation Center

   •   Standard TJCSG assumptions were used.

   •   USED CERTIFIED DATA: Certified data were used to develop the scenario.

       Static data were not modified in the COBRA 6.10.

   •   DATA CHANGED BY TJCSG SUBGROUP: Certified data were changed by
       the TJCSG subgroup. Changes were approved by the TJCSG Principals.

   •   ADEQUATE DOCUMENTATION: Adequate documentation existed to justify
       when certified data were not used.

   •   SUFFICIENT METHODOLOGIES: Adequate documented rationale existed to
       support the changes to the certified data.

   •   COSTS OR SAVINGS: Certified costs and savings were included in the scenario
       except for one-time information technology cost. The exclusion of the one-time
       information technology cost was approved by the TJCSG.

   •   USE OF MILITARY JUDGMENT: Military judgment was used in excluding
       certified costs by the subgroup and all the changes were approved by the TJCSG
       Principals.




                                          21
TECH 0018B – Create an Integrated Weapons and Armaments Specialty Site for
  Research, for Guns and Ammunition

   •   Standard TJCSG assumptions were used.

   •   USED CERTIFIED DATA: Certified data were used to develop the scenario.

       Static data were not modified in the COBRA 6.10.

   •   DATA CHANGED BY TJCSG SUBGROUP: Certified data were changed by
       the TJCSG subgroup. Changes were approved by the TJCSG Principals.

   •   ADEQUATE DOCUMENTATION: Adequate documentation existed to justify
       when certified data were not used.

   •   SUFFICIENT METHODOLOGIES: Adequate documented rationale existed to
       support the changes to the certified data.

   •   COSTS OR SAVINGS: Certified costs were excluded pertaining to support
       contract termination cost. The exclusion of the termination cost was considered
       overhead and the exclusion was approved by the TJCSG.

   •   USE OF MILITARY JUDGMENT: Military judgment was used in excluding
       certified cost by the subgroup and all the changes were approved by the TJCSG
       Principals.




                                          22
TECH 0018DR – Create a Naval Air Integrated Weapons and Armaments Research,
  Development and Acquisition, Test and Evaluation Center

   •   Standard TJCSG assumptions were used.

   •   USED CERTIFIED DATA: Certified data were used to develop the scenario.

       Static data were not modified in the COBRA 6.10.

   •   DATA CHANGED BY TJCSG SUBGROUP: Certified data were changed by
       the TJCSG subgroup. Changes were approved by the TJCSG Principals.

   •   ADEQUATE DOCUMENTATION: Adequate documentation existed to justify
       when certified data were not used.

   •   SUFFICIENT METHODOLOGIES: Adequate documented rationale existed to
       support the changes to the certified data.

   •   COSTS OR SAVINGS: Certified costs and savings were included in the scenario
       except for one-time information technology costs. The exclusion of the one-time
       information technology costs was approved by the TJCSG.

   •   USE OF MILITARY JUDGMENT: Military judgment was used in excluding
       certified costs by the subgroup and all the changes were approved by the TJCSG
       Principals.




                                          23
TECH 0018E – Consolidate Navy Strategic Test and Evaluation

   •   Standard TJCSG assumptions were not used.

   •   USED CERTIFIED DATA: All certified data were used to develop the scenario.

       Static data were not modified in the COBRA 6.10.

   •   DATA CHANGED BY TJCSG SUBGROUP: Certified data were not changed.

   •   ADEQUATE DOCUMENTATION: Not applicable, none of the certified data
       were changed.

   •   SUFFICIENT METHODOLOGIES: Not applicable, none of the certified data
       were changed.

   •   COSTS OR SAVINGS: Not applicable, none of the certified data were changed.

   •   USE OF MILITARY JUDGMENT: Not applicable, none of the certified data
       were changed.




                                         24
TECH 0031 – Consolidate Sea Vehicle Development and Acquisition

   •   Standard TJCSG assumptions were used.

   •   USED CERTIFIED DATA: Certified data were used to develop the scenario.

       Static data were not modified in the COBRA 6.10.

   •   DATA CHANGED BY TJCSG SUBGROUP: Data were changed by the TJCSG
       subgroup. Not all changes were authorized by the TJCSG Principles.

   •   ADEQUATE DOCUMENTATION: Adequate documentation was prepared to
       justify not using certified data except for the following:

               - Elimination of two facility requirements (a Research, Development,
       Test,
                and Evaluation building; and miscellaneous items and equipment)*

   •   SUFFICIENT METHODOLOGIES: Adequate rationale was provided to support
       the changes to the certified data except for items noted above.

   •   COSTS OR SAVINGS: Certified costs and savings were included in the
       scenario.

   •   USE OF MILITARY JUDGMENT: Military judgments were used by the TJCSG
       subgroup. Documentation provided adequate explanations when uncertified data
       was used including approval by the TJCSG Principals’ except for items above.


* Documentation supporting the change was not provided, but the change was
insignificant in relation to the entire scenario.




                                           25
TECH 0040R – Co-locate Extramural Research Program Managers

   •   Standard TJCSG assumptions were used.

   •   USED CERTIFIED DATA: Certified data were used to develop the scenario.

       Static data were not modified in the COBRA 6.10.

   •   DATA CHANGED BY TJCSG SUBGROUP: Certified data were changed by
       the TJCSG subgroup. Changes were approved by the TJCSG Principals.

   •   ADEQUATE DOCUMENTATION: Adequate documentation was prepared to
       justify not using some of the certified data. Exclusions were approved by the
       TJCSG.

   •   SUFFICIENT METHODOLOGIES: Adequate rationale was provided to support
       changes to the certified data.

   •   COSTS OR SAVINGS: Costs and savings were excluded for various reasons.
       The rationale for excluding costs was adequately documented and approved by
       the TJCSG. An anti-terrorism, force protection cost estimate of $14,006,000 was
       included in this scenario.

   •   USE OF MILITARY JUDGMENT: Certified data were changed based on
       military judgment by the subgroup. Documentation showed the basis of the
       adjustments and TJCSG Principals’ approval.




                                          26
TECH 0042AR – Consolidate Maritime C4ISR Research, Development and Acquisition,
  Test, and Evaluation

   •   Standard TJCSG assumptions were used.

   •   USED CERTIFIED DATA: Certified data were used to develop the scenario.

       Static data were not modified in the COBRA 6.10.

   •   DATA CHANGED BY TJCSG SUBGROUP: Certified data were changed by
       the TJCSG subgroup. There was no documented evidence of TJCSG Principals’
       approval of scenario assumptions used.

   •   ADEQUATE DOCUMENTATION: Adequate documentation was prepared to
       justify not using certified data except for the following:

       - Percentage of administrative personnel used in personnel reductions.*
       - Exclusion of non-vehicle mission equipment tonnage reported by Naval Base,
         Point Loma.*
       - Percentage applied to non-vehicle mission equipment tonnage moving to Naval
         Base, Newport.*

       SUFFICIENT METHODOLOGIES: Adequate rationale was provided to support
       the changes to the certified data except for items noted above.

   •   COSTS OR SAVINGS: Costs were not included for various reasons. The
       rationale for not including costs was adequately documented except for the
       three items noted above.

   •   USE OF MILITARY JUDGMENT: Certified data were changed based on
       military judgment by the subgroup. Documentation showed the basis of the
       adjustments; however, documentation did show the TJCSG Principals’ approval.


* Documentation supporting the elimination of these items was inadequate, and we were
unable to determine the cost impact on the scenario.




                                          27
TECH 0042C – Consolidate Air and Space C4ISR Research, Development and
  Acquisition, Test, and Evaluation

   •   Standard TJCSG assumptions were used.

   •   USED CERTIFIED DATA: Certified data were used to develop the scenario.

       Static data were not modified in the COBRA 6.10

   •   DATA CHANGED BY TJCSG SUBGROUP: Certified data were changed by
       the TJCSG subgroup. Changes were approved by the TJCSG Principals. There
       was documented evidence of approval for all assumptions except for the
       following:

          - Elimination of personnel reported by Edwards Air Force Base.*
          - Elimination of personnel reported by Eglin Air Force Base.*

   •   ADEQUATE DOCUMENTATION: Adequate documentation was prepared to
       justify not using some of the certified data except for the three elements noted
       above.

   •   SUFFICIENT METHODOLOGIES: Adequate rationale was provided to support
       the changes to the certified data except for the three elements noted above

   •   COSTS OR SAVINGS: All costs reported by Hanscom Air Force Base were
       included. One-time unique costs, one-time moving costs, and information
       technology costs reported by Edwards Air Force Base were not included in the
       scenario. The rationale for the exclusion of these cost elements was documented
       and was approved by the TJCSG Principals.

   •   USE OF MILITARY JUDGMENT: Certified data were changed based on
       military judgment by the subgroup. Documentation showed the basis of the
       adjustments and TJCSG Principals’ approval except as noted above.


* Documentation supporting the change was not provided, but the change was
insignificant in relation to the entire scenario.




                                           28
TECH 0054 – Navy Sensors, Electronic Warfare, and Electronics Research,
Development
  and Acquisition, Test, and Evaluation

   •   Standard TJCSG assumptions were not used.

   •   USED CERTIFIED DATA: Certified data were used to develop the scenario.

       Static data were not modified in the COBRA 6.10.

   •   DATA CHANGED BY TJCSG SUBGROUP: Certified data were not changed.

   •   ADEQUATE DOCUMENTATION: Not applicable, none of the certified data
       were changed.

   •   SUFFICIENT METHODOLOGIES: Not applicable, none of the certified data
       were changed.

   •   COSTS OR SAVINGS: Not applicable, none of the certified data were changed.

   •   MILITARY JUDGMENT: Not applicable, none of the certified data were
       changed.




                                         29
Appendix C. Report Distribution
Office of the Secretary of Defense
     Director, Base Realignment and Closures (Installations and Environment)
     Director, Defense Research and Engineering


Non-Defense Federal Organization
     Government Accountability Office




                                        30
Audit Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Technology Management prepared this report. Personnel of the
Department of Defense Office of the Inspector General who contributed to the report are
listed below.

         Mary L. Ugone
         Bruce A. Burton
         Frank C. Sonsini
         Dharam Jain
         Rudolf Noordhuizen
         Roger Florence
         David H. Griffin
         Chrispian M. Brake
         Amber M. Lyons
         Patrick M. Sampson
         Paul R. Glenn
         Jacqueline N. Pugh
